          EVALUATION REPORT

                Inspector General’s Assessment of the
              Most Serious Management and Performance
                        Challenges Facing NRC


                      OIG-11-A- 01      October 1, 2010




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                            UNITED STATES
                    NUCLEAR REGULATORY COMMISSION
                            WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                         October 1, 2010




MEMORANDUM TO:            Chairman Jaczko



FROM:                     Hubert T. Bell /RA/
                          Inspector General


SUBJECT:                  INSPECTOR GENERAL’S ASSESSMENT OF THE MOST
                          SERIOUS MANAGEMENT AND PERFORMANCE
                          CHALLENGES FACING NRC (OIG-11-A-01)


The Reports Consolidation Act of 2000 requires the Inspector General of each Federal
agency to annually summarize what he or she considers to be the most serious
management and performance challenges facing the agency and to assess the
agency’s progress in addressing those challenges. In accordance with the act,
I identified seven management and performance challenges confronting the Nuclear
Regulatory Commission that I consider to be the most serious.

We appreciate the cooperation extended to us during this evaluation. The agency
provided comments on this report, which have been incorporated as appropriate. If
you have any questions, please contact Stephen D. Dingbaum, Assistant Inspector
General for Audits, at 415-5915 or me at 415-5930.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Hubert T. Bell, Inspector General
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
Marc L. Dapas, Acting Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
   Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



EXECUTIVE SUMMARY



           The Reports Consolidation Act of 2000 requires the Inspector General (IG)
           of each Federal agency to annually summarize what he or she considers
           to be the most serious management and performance challenges facing
           the agency and to assess the agency’s progress in addressing those
           challenges.




           In accordance with the act, the IG at the U.S. Nuclear Regulatory
           Commission (NRC) updated what he considers to be the most serious
           management and performance challenges facing NRC. The IG evaluated
           the overall work of the Office of the Inspector General (OIG), the OIG
           staff’s general knowledge of agency operations, and other relevant
           information to develop and update his list of management and
           performance challenges. As part of the evaluation, OIG staff sought input
           from NRC’s Chairman, Commissioners, and management to obtain their
           views on what challenges the agency is facing and what efforts the
           agency has taken to address previously identified management
           challenges.




           The IG identified seven challenges that he considers the most serious
           management and performance challenges facing NRC. The challenges identify
           critical areas or difficult tasks that warrant high-level management attention.

           The 2010 list of challenges reflects one change from the 2009 list. Prior
           Challenge 6, Administration of all aspects of financial management, was
           reworded to include a reference to procurement. The new wording,
           Administration of all aspects of financial management and procurement, is
           intended to reflect the overarching responsibility that NRC has to manage and
           exercise stewardship over its resources.

           The following chart provides an overview of the seven most serious
           management and performance challenges as of October 1, 2010.


                                                i
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



          Most Serious Management and Performance Challenges
               Facing the Nuclear Regulatory Commission *
                           as of October 1, 2010
                  (as identified by the Inspector General)
Challenge 1       Protection of nuclear material used for civilian purposes.

Challenge 2       Managing information to balance security with openness and
                  accountability.

Challenge 3       Ability to modify regulatory processes to meet a changing
                  environment, to include the licensing of new nuclear facilities.

Challenge 4       Oversight of radiological waste.

Challenge 5       Implementation of information technology and information
                  security measures.

Challenge 6       Administration of all aspects of financial management and
                  procurement.

Challenge 7       Managing human capital.



*The most serious management and performance challenges are not
ranked in any order of importance.




              The seven challenges contained in this report are distinct, yet
              interdependent relative to the accomplishment of NRC’s mission. For
              example, the challenge of managing human capital affects all other
              management and performance challenges.

              The agency’s continued progress in taking actions to address the
              challenges presented should facilitate achieving the agency’s mission and
              goals.




                                                  ii
   Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



ABBREVIATIONS AND ACRONYMS

           CFR              Code of Federal Regulations

           CUI              Controlled Unclassified Information

           FY               fiscal year

           IG               Inspector General

           HSPD-12          Homeland Security Presidential Directive-12

           IMPEP            Integrated Materials Performance Evaluation Program

           NMMSS            Nuclear Materials Management and Safeguards System

           NRC              U.S. Nuclear Regulatory Commission

           NSTS             National Source Tracking System

           OIG              Office of the Inspector General

           3WFN             Three White Flint North




                                               iii
   Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



TABLE OF CONTENTS

    EXECUTIVE SUMMARY ....................................................................................... i

    ABBREVIATIONS AND ACRONYMS .................................................................. iii

        I. BACKGROUND ......................................................................................... 1

        II. PURPOSE ................................................................................................. 1

        III. EVALUATION RESULTS........................................................................... 1


    Challenge 1         Protection of nuclear material used for civilian
                        purposes....................................................................................... 4

    Challenge 2         Managing information to balance security with
                        openness and accountability ........................................................ 8

    Challenge 3         Ability to modify regulatory processes to meet a
                        changing environment, to include the licensing
                        of new nuclear facilities .............................................................. 12

    Challenge 4         Oversight of radiological waste................................................... 16

    Challenge 5         Implementation of information technology and
                        information security measures.................................................... 19

    Challenge 6         Administration of all aspects of financial
                        management and procurement .................................................. 22

    Challenge 7         Managing human capital ............................................................ 26


        IV. CONCLUSION ......................................................................................... 28


    APPENDIX

    SCOPE AND METHODOLOGY ......................................................................... 29




                                                       iv
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



I.     BACKGROUND

               On January 24, 2000, Congress enacted the Reports Consolidation Act of
               2000 (Reports Act), requiring Federal agencies to provide financial and
               performance management information in a more meaningful and useful
               format for Congress, the President, and the public. The Reports Act
               requires the Inspector General (IG) of each Federal agency to annually
               summarize what he or she considers to be the most serious management
               and performance challenges facing the agency and to assess the
               agency’s progress in addressing those challenges.



II.    PURPOSE

               In accordance with the Reports Act’s provisions, the U.S. Nuclear
               Regulatory Commission (NRC) IG updated what he considers to be the
               most serious management and performance challenges facing the
               agency. The IG evaluated the overall work of the Office of the Inspector
               General (OIG), the OIG staff’s general knowledge of agency operations,
               and other relevant information to develop and update his list of
               management and performance challenges.

               In addition, OIG sought input from NRC’s Chairman, Commissioners, and
               management to obtain their views on what challenges the agency is facing
               and what efforts the agency has taken or planned to address previously
               identified management and performance challenges.



III.   EVALUATION RESULTS

               The NRC’s mission is to license and regulate the Nation’s civilian use of
               byproduct, source, and special nuclear materials to ensure adequate
               protection of public health and safety, promote the common defense and
               security, and protect the environment. Like other Federal agencies, NRC
               faces management and performance challenges in carrying out its
               mission.




                                                    1
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



              Determination of Management and Performance Challenges

              Congress left the determination and threshold of what constitutes a most
              serious management and performance challenge to the discretion of the
              Inspectors General. As a result, the IG applied the following definition in
              identifying challenges:



Serious management and performance challenges are mission critical areas or
programs that have the potential for a perennial weakness or vulnerability that, without
substantial management attention, would seriously impact agency operations or
strategic goals.



              Based on this definition, in 2010, the IG assessed the most serious
              management and performance challenges facing NRC and identified seven
              challenges that he considered most serious. The challenges identify critical
              areas or difficult tasks that warrant high-level management attention. The 2010
              list of challenges reflects one change from the 2009 list:

                          Prior Challenge 6, Administration of all aspects of financial
                          management, was reworded to include a reference to
                          procurement. The new wording, Administration of all aspects of
                          financial management and procurement, is intended to reflect the
                          overarching responsibility that NRC has to manage and exercise
                          stewardship over its resources.

              The following chart provides an overview of the seven challenges
              identified as most serious. The sections that follow the chart provide more
              detailed descriptions of the challenges, descriptive examples related to the
              challenges, and examples of efforts that the agency has taken or are
              underway or planned to address the challenges.




                                                   2
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




          Most Serious Management and Performance Challenges
               Facing the Nuclear Regulatory Commission *
                           as of October 1, 2010
                  (as identified by the Inspector General)
Challenge 1       Protection of nuclear material used for civilian purposes.

Challenge 2       Managing information to balance security with openness and
                  accountability.

Challenge 3       Ability to modify regulatory processes to meet a changing
                  environment, to include the licensing of new nuclear facilities.

Challenge 4       Oversight of radiological waste.

Challenge 5       Implementation of information technology and information
                  security measures.

Challenge 6       Administration of all aspects of financial management and
                  procurement.

Challenge 7       Managing human capital.



*The most serious management and performance challenges are not
ranked in any order of importance.




                                                  3
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 1
Protection of nuclear material used for civilian purposes.

                NRC is authorized to grant licenses for the possession and use of
                radioactive materials and establish regulations to govern the possession
                and use of those materials.

                NRC’s regulations require that certain material licensees have extensive
                material control and accounting programs as a condition of their licenses.
                All other license applications (including those requesting authorization to
                possess small quantities of special nuclear materials) must develop and
                implement plans that demonstrate a commitment to accurately control and
                account for radioactive materials.

                NRC may relinquish to States, upon their request, its authority to regulate
                certain radioactive materials and limited quantities of special nuclear
                material. After these States demonstrate that their regulatory programs
                are adequate to protect public health and safety and compatible with
                NRC’s program, the States enter into an agreement assuming this
                regulatory authority from NRC and are called Agreement States.

                The issues related to this challenge and the agency’s actions to address
                each issue include the following:

                Issue: Implement the National Source Tracking System (NSTS), Web
                Based Licensing, and the Licensing Verification System to ensure the
                accurate tracking and control of byproduct material, especially those
                materials with the greatest potential to impact public health and safety.

                        Action: NSTS became operational in December 2008 and was
                        available to licensees in January 2009 for tracking Code of
                        Conduct1 materials in categories 1 and 2. Although there are some
                        issues regarding NSTS’ credentialing process, the staff has
                        numerous actions underway to address these difficulties and

1
  In January 2004, the International Atomic Energy Agency published the Code of Conduct on the Safety
and Security of Radioactive Sources as the standard the international community uses to govern the
safety and security of radioactive materials based on the categorization system. While the International
Atomic Energy Agency classifies sources into five categories, it notes that sources in categories one
through three are designated as varying degrees of dangerous.


                                                    4
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 ultimately increase the online usage of NSTS. The agency is still
                 working to make operational Web Based Licensing and the
                 Licensing Verification System. The agency recently awarded the
                 Integrated Source Management Portfolio contract, which will
                 integrate NSTS, Web Based Licensing, and the Licensing
                 Verification System to license and track source materials under one
                 mechanism.

        Issue: Ensure that radioactive material is adequately protected to
        preclude its use for malicious purposes.

                 Action: Although NRC initiated a rulemaking to expand the
                 materials tracked in NSTS, the decision and potential
                 implementation of that rulemaking was not approved by the
                 Commission. A Commissioner highlighted the following
                 improvements in NRC’s overall licensing process as a reason for
                 not approving the rulemaking: background investigations;
                 increased inspections; additional license review; pre-licensing
                 verification and site visits; transfer of sources under existing
                 security orders to verify new users; flagging of significant changes
                 in ordering patterns; licensing of end users; requirements in Title
                 10, Code of Federal Regulations (CFR), Part 30.41, requiring
                 licensees to verify that a recipient is authorized to receive material;
                 and the presence of existing increased control orders for licensees
                 possessing quantities of material that in the aggregate exceed
                 Category 2 levels.

                 One radioactive isotope that is of particular concern for malicious
                 use is cesium-chloride. The U.S. National Academy of Sciences
                 issued a report that emphasized replacement technologies be
                 considered for cesium-chloride, a highly dispersible chemical form
                 of the radioactive isotope of Cesium, Cs-137. Cesium-chloride is
                 very soluble in water and easily dispersed in the air and is highly
                 toxic if ingested. Cesium-chloride, used in nuclear medicine,
                 research, and industry, is typically double sealed and contained in a
                 stainless steel capsule for safety reasons. In light of the views on
                 alternative technologies as a replacement, NRC convened public
                 workshops to seek input from various stakeholders. NRC also
                 commissioned a study by its Advisory Committee on the Medical
                 Uses of Isotopes. After carefully considering all these inputs, as

                                             5
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                        well as the NRC’s own internal analysis, the agency concluded that
                        near-term replacement of cesium-chloride devices was not
                        practicable, and would be detrimental to the delivery of medical
                        care and research. The current policy allows the continued use of
                        cesium chloride while actively pursuing a better alternative.
                        Additionally, NRC issued a draft policy statement for public
                        comment that emphasizes that developing alternatives to cesium-
                        chloride sources would be prudent.

                Issue: Ensure the appropriate oversight of
                uranium recovery facilities.

                        Action: NRC maintains a regulatory
                        oversight program with respect to
                        licensing and inspection of uranium
                        recovery facilities to ensure that
                        licensees conduct activities safely and in
                        an environmentally protective manner.
                        NRC regulates four in situ recovery
                        facilities2 in the Western States, and, for those operating facilities,
                        conducts routine annual inspections to ensure that they are safely
                        operated.

                Issue: Ensure adequate inspections to verify licensees’ commitments to
                their material control and accounting programs.

                        Action: NRC is enhancing its inspection program. Currently, fuel
                        cycle material control and accounting inspections are a shared
                        responsibility between the Office of Nuclear Material Safety and
                        Safeguards and NRC’s Region II. The agency continues to ensure
                        that there are two material control and accounting inspectors in
                        each location.

                        Additionally, NRC is working to document the basis for risk-
                        informing its material control and accounting program with respect
                        to conducting periodic inspections.



2
  In situ recovery is one of the two primary extraction methods that are currently used to obtain uranium
from underground. These facilities recover uranium from low-grade ores where other mining and milling
methods may be too expensive or environmentally disruptive.
                                                    6
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



        Issue: Ensure reliable accounting of special nuclear materials in the NRC
        and Department of Energy’s jointly managed Nuclear Materials
        Management and Safeguards System (NMMSS).

                 Action: NRC has been working since 2003 to resolve issues of
                 material control and accounting in response to OIG-03-A-15, Audit
                 of NRC’s Regulatory Oversight of Special Nuclear Materials. On
                 February 7, 2008, NRC approved a final rule that amended its
                 regulations to improve the accuracy of material inventory
                 information maintained in the NMMSS. The amendments, effective
                 January 1, 2009, lower the threshold of reportable quantities of
                 special nuclear materials and certain source materials to the
                 NMMSS, modify the types and timing of submittals to the NMMSS,
                 and require licensees to reconcile any material inventory
                 discrepancies that NRC identifies in the NMMSS database. NRC
                 reports that it has started implementing the rule change requiring
                 improved reporting and reconciliation for licensees reporting to
                 NMMSS, and has verified the adequacy of material control and
                 accounting of special nuclear material at NRC licensed facilities.
                 Additionally, the Commission has directed the NRC staff to revise
                 and consolidate current material control and accounting regulations
                 into 10 CFR Part 74. This final rule and associated guidance is
                 scheduled to be completed by April 30, 2012.


        Issue: Ensure that Agreement State programs are adequate to protect
        public health and safety and the environment, and are compatible with
        NRC’s program.

                 Action: NRC conducts 8 to 10 reviews per year of Agreement
                 State radioactive materials programs and NRC’s regional programs
                 under the agency’s Integrated Materials Performance Evaluation
                 Program (IMPEP). Furthermore, NRC completed a self-
                 assessment of IMPEP in July 2010. To date, the agency has
                 evaluated the IMPEP Team Member Training and audited the
                 preparations and onsite portion of an IMPEP review. NRC also
                 plans to review IMPEP policies and procedures, interview agency
                 and Agreement State managers and staff, and develop a procedure
                 for future self-assessments.


                                             7
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 2
Managing information to balance security with openness and accountability.

             NRC employees create and work with a significant amount of sensitive
             information that needs to be protected. Such information includes
             sensitive unclassified information and classified national security
             information contained in written documents and various electronic
             databases.

             In addressing continuing terrorist activity worldwide, NRC continually
             reexamines its information management policies and procedures. NRC
             faces the challenge of attempting to balance the need to protect sensitive
             information from inappropriate disclosure with the agency’s goal of
             openness in its regulatory processes. Over the past year, NRC has made
             various efforts to improve public access to information while protecting
             sensitive information, including security-related information, from
             inappropriate disclosure.

             The issues related to this challenge and the agency’s actions to address
             each issue include the following:

             Issue: Be responsive to requests for information and provide external
             stakeholders with clear and accurate information about regulatory
             programs and facilitate public participation in the regulatory process to
             ensure openness and accountability.

                      Action: NRC instituted a contract to review documents that were
                      removed from the public domain after September 11, 2001, and
                      restore them to the public domain, in their entirety or redacted,
                      whichever is appropriate. This contract will remain in effect through
                      fiscal year (FY) 2011.

                      Action: NRC continues to evaluate security related information to
                      determine what can be made publicly available. Information that
                      would not be beneficial to an adversary has been made available to
                      the public through various means including the NRC Web site, a
                      public version of the annual security report to Congress, and public
                      meetings. A recent example is a series of public meetings
                      addressing proposed improvements to the significance
                      determination process.
                                                  8
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 Action: NRC staff have conducted a number of stakeholder
                 outreach efforts to include public meetings on specific regulatory
                 issues and with elected officials regarding issues at facilities within
                 their jurisdiction.

                 Action: In response to recommendations in OIG’s Audit of NRC’s
                 Process for Closed Meetings (OIG-A-14), the agency is planning to
                 implement several measures to better notify the public about when
                 NRC holds non-public meetings with external stakeholders and to
                 what topics these meetings pertain.

        Issue: Manage information in accordance with new Federal Government
        policies for designating, marking, safeguarding, and disseminating
        controlled unclassified information (CUI).

                 Action: In May 2009, the President issued a memorandum on CUI
                 which established an interagency Task Force to review the CUI
                 framework. Following further presidential direction, the National
                 Archives and Records Administration will issue implementation
                 guidance and NRC will develop its plan to implement the new CUI
                 program. NRC’s Safeguards Information program will be
                 incorporated into the CUI program.

        Issue: Ensure that sensitive information is handled in accordance with
        agency policies and procedures for public disclosure.

                 Action: NRC announced the release of the “NRC’s Personally
                 Identifiable Information Responsibilities Awareness and
                 Acknowledgement of Understanding” training presentation through
                 Yellow Announcement No. 116 dated November 16, 2009. NRC
                 developed this presentation to ensure that all personnel are aware
                 of their responsibilities for protecting Personally Identifiable
                 Information, understand the consequences of violating of these
                 responsibilities, and acknowledge these responsibilities on an
                 annual basis.

                 Action: In addition, NRC is in the process of reviewing the shared
                 network drives to ensure that Personally Identifiable Information is
                 adequately protected or removed if unnecessary.


                                             9
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



        Issue: Review and strengthen programs to protect licensee, vendor, and
        Government-owned assets (e.g., facility designs, technology descriptions,
        dual use material and components, classified information) from
        compromise by foreign sources and industrial espionage and increase
        awareness of the relationship of these assets to the Nation’s economic
        and industrial base and energy infrastructure.

                 Action: NRC has recognized the need to ensure technological
                 data involving licensee, vendor, and Government-owned assets is
                 fully protected against potential loss to adversaries. NRC has
                 promulgated orders that provide additional security measures for
                 the protection of these assets.

                 NRC employees and contractors are required to have a baseline
                 level of security awareness upon entry on duty and the receipt of a
                 security clearance. Others, depending on their job and involvement
                 in the creation and use of protected information, are provided
                 various "role based" training programs, such as classifier's training,
                 training for administrative personnel, declassification training,
                 Secret Internet Protocol Router Network users training, and
                 Sensitive Compartmented Information Access training. The training
                 is layered, targeted, and recurring for those who have specific
                 responsibilities for various types of protected information.

                 In addition, NRC has increased its information security awareness
                 through the issuance of a variety of agencywide announcements
                 informing staff of the methods employed by those targeting NRC
                 information systems and the corresponding need for employees to
                 heighten their computer security information protection posture.

        Issue: Technologies or materials, which the NRC regulates, have
        potential intelligence value to foreign states and non-state actors from
        either an intelligence or a counterproliferation, counterterrorism, or
        economic espionage perspective and should be protected from potential
        compromise. Further, there is the potential that NRC employees have
        knowledge and access to information that may be of interest to foreign
        powers and non-state actors.




                                            10
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 Action: The NRC has begun the process of developing
                 programmatic efforts aimed at identifying potential threats and
                 vulnerabilities that exist in its programs and operations. Such
                 efforts should continue and receive senior leadership support.




                                            11
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 3
Ability to modify regulatory processes to meet a changing environment, to
include the licensing of new nuclear facilities.

             NRC faces the challenge of maintaining its core regulatory programs while
             adapting to changes in its regulatory environment. NRC must address a
             growing interest in licensing and constructing new nuclear power plants to
             meet the Nation’s increasing demands for energy production. As of June
             2010, NRC had received 18 Combined Operating License applications,
             and the agency expects to receive 2 new applications through FY 2012.

             While responding to the emerging demands associated with licensing and
             regulating new reactors, NRC must maintain focus and effectively carry
             out its current regulatory responsibilities, such as inspections of the
             current fleet of operating nuclear reactors and fuel cycle facilities. NRC
             intends to increase its safety focus on licensing and oversight activities
             through risk-informed and performance-based regulation.

             The issues related to this challenge and the agency’s actions to address
             each issue include the following:

             New Facilities

             Issue: Implement the new Construction Inspection Program.

                      Risk-inform Construction Inspection Program activities to ensure
                      the safe operation of newly constructed nuclear facilities.

                      Ensure that the NRC staff has the necessary knowledge and skill to
                      successfully implement the program.

                      Action: The Office of New Reactors has developed the new
                      Construction Inspection Program in accordance with 10 CFR Part
                      52. New inspections, tests, analyses, and acceptance criteria have
                      been integrated into the Part 52 licensing process “to create a
                      design-specific, pre-approved set of performance standards that
                      the licensee must meet and that the Commission must find have
                      been met, before the licensee can load fuel and operate the plant.”
                      Additionally, the agency has issued and revised a number of


                                                 12
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 Inspection Manual Chapters and procedures to implement the new
                 inspections, tests, analyses, and acceptance criteria process.

                 The Office of New Reactors continues to make improvements to its
                 construction inspection and quality assurance practices per OIG
                 recommendations. For example, NRC has revised Inspection
                 Manual Chapter 1252, Construction Inspector Training and
                 Qualification Program, to ensure that the agency is effectively
                 preparing inspectors to implement the new Construction Inspection
                 Program. The agency will monitor the effectiveness of the training
                 program as inspections of the new construction projects begin.

        Issue: As the public’s demand for new energy sources continues, NRC
        must ensure that the process for reviewing applications for new facilities
        focuses on safety and effectiveness.

                 Action: NRC’s preparations have been focused on issuing reactor
                 design certifications, revising the regulation that governs early site
                 permits, and engaging in ongoing interactions with nuclear plant
                 designers and utilities regarding prospective new reactor
                 applications and licensing activities. In April 2009, the Office of
                 New Reactors developed a set of goals with the purpose of
                 enhancing the agency’s ability to plan and implement its reviews
                 more effectively in a dynamic environment resulting from changes
                 in the applicants' business strategies.

        NRC is taking a "design-centered review approach" to optimize the
        Combined Operating License application review process. Part of the
        license review process includes conducting risk-informed performance-
        based vendor inspections and quality assurance/quality control audits.

        Issue: As the sources of manufactured reactor components become
        more globalized, NRC must ensure its regulations and oversight activities
        appropriately address the challenges associated with licensees procuring
        components from suppliers located outside of the United States.

                 Action: The Office of New Reactors has taken steps to allocate
                 resources for the use of translators and/or interpreters to support
                 the office’s foreign vendor inspections. NRC also participates in the
                 Multinational Design Evaluation Program, which is a multinational

                                            13
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 initiative taken by national safety authorities to develop approaches
                 to leverage the resources and knowledge of the national regulatory
                 authorities who will be tasked with the review of new reactor power
                 plant designs.

        Existing Fleet

        Issue: Ensure NRC maintains the ability to effectively review licensee
        applications for license renewals and power uprates submitted by industry
        in response to the Nation’s increasing demands for energy production.

                 Action: For planning purposes, NRC continues to work with plant
                 licensees to develop a schedule of anticipated license amendment
                 requests for license renewals and power uprates. The agency has
                 also implemented a number of recommendations to improve the
                 license renewal review and power uprate processes to include
                 closer management oversight. For license renewal reviews, the
                 agency has updated report-writing guidance to include
                 management expectations and report-writing standards. For power
                 uprate reviews, the agency has developed a training module for
                 technical reviewers and project managers that is specifically
                 focused on writing or contributing to a safety evaluation.

        Issue: Respond to a heightened public focus on license renewals
        resulting in contested hearings.

                 Action: NRC has open dialogs with the industry, licensees, and
                 stakeholders, and appropriate comments have been incorporated
                 into new inspection procedures. Additionally, the license renewal
                 process allows stakeholders to request a hearing in order to
                 present their concerns.

        Issue: Ensure the ability to identify emerging operating and safety issues
        at all plants, including issues associated with license renewal and power
        uprate; consistently apply regulatory and review changes in response to
        these emerging issues across the existing fleet of reactors.

                 Action: NRC continues to make changes to its regulatory
                 programs based on emerging operational and safety issues related
                 to license renewal and power uprate. For example, as a result of

                                            14
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 identified weaknesses in the power uprate program, Inspection
                 Procedure 71004 was revised to provide additional guidance on
                 inspection planning, implementation, and documentation. Annually,
                 agency staff communicate the status of the license renewal and
                 power uprate programs to the Commission.

                 In March 2010, NRC formed a Groundwater Contamination Task
                 Force to review the actions taken in response to recent releases of
                 tritium into groundwater by nuclear facilities. In June 2010, the
                 Task Force issued a report with 16 conclusions and 4 specific
                 recommendations for the agency to strengthen NRC’s response to
                 groundwater incidents.

        Issue: Establish and maintain effective, stable, and predictable regulatory
        programs or policies for all programs.

                 Action: NRC continues to interface with stakeholders, develop
                 regulatory policy, update rules and technical guidance, provide
                 technical lead and management for the Reactor Oversight Process,
                 and support the development of programmatic changes when
                 needed. Additionally, the Reactor Oversight Process features an
                 annual assessment process which is used to revise the program as
                 necessary.




                                            15
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 4
Oversight of radiological waste.

             NRC regulates spent nuclear fuel generated from commercial nuclear
             power reactors, which is referred to as high-level radioactive waste. NRC
             faces significant issues involving the uncertainty of a potential withdrawal
             of a Department of Energy license application for the Yucca Mountain
             repository for storing high-level radioactive waste. Additional challenges
             in the high-level waste area include the interim storage of spent nuclear
             fuel, certification of storage and transportation casks, and the oversight of
             decommissioned reactors and other nuclear sites.

             Additionally, the amount of low-level waste continues to grow; however, no
             new disposal facilities have been built since the 1980s, and unresolved
             issues will increase as access to disposal facilities becomes more limited
             given facility closures and restricted accessibility.

             The issues related to this challenge and the agency’s actions to address
             each issue include the following:

             Issue: Address increasing quantities of radiological waste requiring
             interim storage or permanent disposal.

                      Action: NRC developed and implemented a risk-informed
                      decisionmaking framework in connection with a wide range of
                      nuclear waste storage issues. NRC has conducted reviews using
                      the framework for dry cask waste storage systems and concluded
                      that such systems provide a safe means to store spent nuclear fuel
                      with exceedingly low risk. NRC has met with Agreement States
                      and issued guidance on interim storage of low-level nuclear waste.
                      Stakeholder outreach is an integral part of the implementation of
                      NRC’s low level waste strategic assessment.

             Issue: Address issues regarding the uncertainty of NRC’s continued
             review or the potential withdrawal of the Department of Energy’s license
             application to construct a high-level radioactive waste repository at Yucca
             Mountain.

                      Action: NRC is continuing to review the Yucca Mountain license
                      application submitted by the Department of Energy in June 2008.
                                                 16
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 In 2010, the agency held hearings and evaluated a wide range of
                 technical and scientific issues. On August 2, 2010, the agency
                 issued Volume 1 of a safety evaluation report on the U.S.
                 Department of Energy license application to construct a geologic
                 repository at Yucca Mountain, Nevada. Volume 1 contains the
                 NRC staff’s conclusion that the “General Information” section of the
                 Department of Energy license application adequately describes the
                 proposed repository. A final decision on the application will be
                 made after completion of NRC’s independent technical review of
                 the application, an adjudicatory hearing, and subsequent
                 Commission review. If the Department of Energy successfully
                 withdraws its license application for a high-level waste repository,
                 NRC staff plan to conduct an orderly shutdown of the technical
                 review program, including knowledge management and responding
                 to continued intervener appeals.

        Issue: Oversight of low-level waste storage and disposal, including low-
        level radioactive waste disposal sites. All current low-level waste disposal
        sites are regulated by Agreement States.

                 Action: NRC has focused on stakeholder outreach as an integral
                 part of the Low-Level Waste Strategic Assessment. This outreach
                 communicates to licensees that the NRC's staff position continues
                 to be that low-level waste storage must meet NRC requirements to
                 ensure safe operation, and that when constructing new low-level
                 waste storage facilities, the regulations for evaluating proposed
                 changes to facilities must be met. In March 2010, NRC posted to
                 its Web site guidance on long-term storage of low-level waste.

        Issue: Oversight of nuclear waste issues associated with the
        decommissioning and cleanup of nuclear reactor sites and other facilities.

                 Action: NRC continues to hold public meetings with stakeholders
                 and licensees to explore safe and secure storage options
                 associated with decommissioning of plants, such as transitioning
                 from spent pool storage to dry cask storage. NRC continues to
                 oversee the 13 power reactors currently undergoing




                                            17
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 decommissioning. NRC staff published NUREG-1307, "Report on
                 Waste Burial Charges," which provides updated disposal costs for
                 pressurized water reactors and boiling water reactors based on
                 estimated disposal volumes.




                                            18
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 5
Implementation of information technology and information security measures.

             NRC needs to continue upgrading and modernizing its information
             technology and security capabilities both for employees and for public
             access to the regulatory process. Recognizing the need to modernize, the
             Office of Information Services established goals to improve the
             productivity, efficiency, and effectiveness of agency programs and
             operations, and enhance the use of information for all users inside and
             outside the agency. NRC also needs to ensure that system security
             controls are in place to protect the agency’s information systems against
             misuse.

             The issues related to this challenge and the agency’s actions to address
             each issue include the following:

             Issue: Upgrade and manage information technology activities to improve
             the productivity, efficiency, and effectiveness of agency programs and
             operations.

                      Action: An aggressive implementation schedule was developed to
                      upgrade the existing information technology environment and to
                      bring new technologies to NRC. Projects under development
                      include a virtual private network and standard laptop and dockable
                      workstation configuration. The Computer Security Office has also
                      established mandatory laptop security standards, including
                      requirements for full-disk encryption and security wireless
                      capabilities for users outside of the NRC network. These efforts,
                      which were underway in FY 2010 and will continue during FY 2011,
                      are intended to enable NRC staff to securely access and use the
                      systems and information needed to perform job junctions,
                      regardless of where they are located.

                      Action: To further agency plans for technology modernization, the
                      Office of Information Services began analysis of information
                      technology/information management legacy applications with
                      business owners to identify opportunities for transforming legacy
                      applications starting in FY 2013. The office continues to work with
                      offices to develop a funding strategy for application modernization.


                                                 19
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 In addition, the office now offers business analysis services with the
                 goal of improving requirements definition.

                 Action: The Office of Information Services has developed an
                 enterprise contracting strategy for commonly used information
                 technology services to improve productivity and efficiency in
                 information technology contracting.

                 Action: NRC Implemented Microsoft Office 2007, thereby
                 upgrading the office suite of applications to a current platform. The
                 agency also implemented Internet Explorer 8 to upgrade the current
                 Web browser to a current and more secure application.

        Issue: Provide laptop computers with enhanced functionality, security,
        and support.

                 Action: The agency has set goals concerning laptops for the
                 Office of Information Services to implement over the next several
                 years. The agency has identified and is addressing its needs to
                 (1) develop policies and standards for the use of laptop computers,
                 (2) implement enterprise encryption and updating of operating
                 systems to support the laptop program, and (3) provide secure
                 wireless capability access.

        Issue: Ensure that information systems and assets are protected.

                 Action: The Computer Security Office has taken action on
                 identified vulnerabilities. Such actions include (1) certifying and
                 accrediting all general support systems and major applications that
                 are reported to the Office of Management and Budget in
                 accordance with the Federal Information Security Management Act;
                 (2) initiating a continuous monitoring process to annually evaluate
                 information technology security controls of agency information
                 technology systems to provide assurance that systems remain
                 secure after having been authorized to operate; (3) publishing
                 information technology security policy and standards to address
                 current agency needs; and (4) implementing a security impact
                 assessment process for evaluating the nature and extent of
                 changes to information technology systems that have been
                 authorized to operate.

                                            20
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 Action: The NRC is deploying a variety of capabilities that
                 strengthen its ability to identify, mitigate and ameliorate threats
                 against its information systems infrastructure. These means,
                 coupled with cyber tabletop exercises designed to examine the
                 agency’s response to potential network intrusion attacks, provide
                 the NRC with enhanced capabilities to respond to such threats.

                 Action: The agency has established a secure network that
                 enables authorized users to access safeguards information
                 documents electronically. This system will reduce the need to print
                 documents and will enable the management of safeguards
                 documents in a centralized electronic document management
                 system.

                 Action: The agency has issued Homeland Security Presidential
                 Directive-12 (HSPD-12) identification cards to NRC staff and
                 contractors and is working to install HSPD-12 card readers at
                 headquarters and regional facilities. Use of this technology is
                 expected to reduce the risk of unauthorized personnel gaining
                 access to NRC facilities, thereby improving security of sensitive
                 information and information technology assets.

        Issue: Ensure that plans for a cyber security inspection program are
        developed and implemented.

                 Action: The staff plans to develop an inspection procedure for
                 conducting cyber security inspections at nuclear power plants and
                 hold training for NRC cyber security inspectors. The inspections
                 are planned to be conducted between calendar years 2012 and
                 2016.




                                            21
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 6

Administration of all aspects of financial management and procurement.

             NRC management is also responsible to meet the objectives of several
             statutes, including the Federal Managers’ Financial Integrity Act. This act
             mandates that NRC establish controls that reasonably ensure that (1)
             obligations and costs comply with applicable law; (2) assets are
             safeguarded against waste, loss, unauthorized use, or misappropriation;
             and (3) revenues and expenditures are properly recorded and accounted
             for. This act encompasses programmatic and administrative areas, as
             well as accounting and financial management.

             NRC’s procurement of goods and services must be made with an aim to
             achieve the best value for the agency’s dollars in a timely manner.
             Further, agency policy provides that NRC’s procurement of goods and
             services supports the agency’s mission; is planned, awarded, and
             administered efficiently and effectively; and is consistent with sound
             business practices and contracting principles.

             The issues related to this challenge and the agency’s actions to address
             each issue include the following:

             Financial Management

             Issue: Replace the agency’s current financial systems, which are
             obsolete, overly complex, and inefficient.

                      Action: The agency is scheduled to deploy the new Financial
                      Accounting and Integrated Management Information System
                      (FAIMIS) on October 1, 2010. The FAIMIS core implementation
                      replaces the functionality of five core financial systems with a single
                      Web-based system based on a commercial-off-the-shelf software
                      system. The agency plans to deploy an acquisitions module for
                      FAIMIS in October 2012.

                      Action: NRC’s plans to upgrade the Time and Labor System in
                      July 2010 were delayed because of performance issues identified
                      during production testing. The agency is currently analyzing the
                      performance issues to determine the root causes. Once the root

                                                 22
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 causes have been identified, the agency plans to develop a path
                 forward, including a project plan to address implementation
                 strategy, resource requirements, and milestones. NRC will
                 continue to use the legacy system until the new system is
                 deployed.

                 Action: In July 2009, NRC implemented e-Travel, a Government-
                 wide initiative to improve travel operations and management. The
                 agency expanded implementation of the system in FY 2010 to
                 include specialized travel, such as foreign and premium class travel
                 and split pay, an option that allows employees to apply a portion of
                 their travel reimbursement to pay their Government credit card bill
                 and a portion to their bank account.

        Issue: Respond to Commission direction and implement
        recommendations of the Advisory Group on Budget Formulation and
        Financial Plan Reporting. This issue encompasses both budget
        formulation and budget execution.

                 Action: NRC made improvements in the budget formulation and
                 execution processes consistent with Commission direction and the
                 recommendations of the Advisory Group on Budget Formulation
                 and Financial Plan Reporting.

                 Budget Formulation: For the FY 2011 budget, the budget
                 formulation process was streamlined and took advantage of the
                 upgraded Budget Formulation System accessibility and functionality
                 enhancements. The formulation of the FY 2011 budget included a
                 new budget structure that incorporates products and product lines.

                 Budget Execution: During FY 2010, NRC implemented
                 improvements to the budget execution process.

                     The midyear review and request process was eliminated and
                     replaced with a reprogramming strategy early in the fiscal year.
                     This resulted in funds being made available earlier in the year.
                     Plans are to continue to streamline and accelerate this process
                     for the next execution year.



                                            23
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                           Additionally, advance procurement planning was coordinated
                           with the planning for funds utilization, which brought the agency
                           a step closer to ultimately integrating the advanced procurement
                           plan and budget execution.

                           Finally, the new budget structure positions the agency to
                           integrate budget formulation, execution, and performance
                           information using the new financial management systems.
                           Budget execution and management information reporting will be
                           improved through enhanced capabilities to compare budgeted
                           amounts with actual funds used.

              Procurement

              Issue: Implement improvements in the agency’s procedures for awarding,
              negotiating, and managing agreements with Department of Energy
              laboratories.

                       Action: In response to an OIG audit,3 NRC has agreed to revise
                       Management Directive 11.7, NRC Procedures for Placement and
                       Monitoring of Work with the U.S. Department of Energy. The
                       revisions include the following: requiring NRC offices to consider
                       the use of commercial sources through market research, clarifying
                       Management Directive 11.7 to emphasize the requirement to
                       document the rationale and basis for using a Department of Energy
                       lab, and requiring independent review of justifications by NRC
                       Division of Contracts personnel to ensure that commercial sources
                       are fully considered. In addition, the NRC plans to initiate efforts
                       with the Department of Energy to update the memorandum of
                       understanding between the two agencies to require that the
                       Department of Energy provide NRC with timely audit reports.

              Issue: Manage the agency’s expanded grant program to ensure that
              grants are awarded in a timely manner and NRC personnel who award
              and administer grants are provided appropriate training.




3
 OIG-10-A-12, Audit of NRC’s Management of Agreements with Department of Energy Laboratories
(April 23, 2010).
                                                  24
       Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                        Action: NRC established and documented a process for
                        announcing grants, reviewing applications, and administering
                        grants. NRC also implemented the Department of the Treasury’s
                        Automated Standard Application for Payments System to ensure
                        accessible and timely distribution of funds to the grantees. This
                        allows funds to be available as early as the beginning of the grant’s
                        period of performance for immediate drawdown based on incurred
                        costs.

                        Action: NRC conducted a Lean Six Sigma4 review of the agency’s
                        process for awarding grants to reduce the overall time for
                        processing grants. Recently, the Division of Contracts issued
                        Interim guidance to offices responsible for implementing the Grants
                        Program to include the Office of Human Resources, Office of Small
                        Business and Civil Rights, and Office of Nuclear Regulatory
                        Research, as recommended by the Lean Six Sigma and by OIG’s
                        Audit of NRC’s Grant Management Program.5

                        Action: On June 24, 2010, the Executive Director for Operations
                        issued a memorandum to the Office of Human Resources, Office of
                        Small Business and Civil Rights, and Office of Nuclear Regulatory
                        Research, establishing a Grants Management Certification and
                        Training Program, effective immediately. The training program will
                        ensure that grants specialists or grants project officers are
                        appropriately trained and certified to carry out their fiduciary
                        responsibilities. The program mandates specific training for staff
                        involved in awarding, administering, and monitoring grants and
                        cooperative agreements. Implementation of this program also
                        responds to recommendations in OIG’s Audit of NRC’s Grants
                        Management Program.




4
  Lean Six Sigma is a structured methodology that NRC uses to accomplish sustained improvements to
the types of process, transactions, and services that are performed routinely at the agency.
5
  OIG-09-A-16, Audit of NRC’s Grant Management Program (September 29, 2009).
                                                   25
     Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



CHALLENGE 7

Managing human capital.

             Over the last 6 years, NRC’s workforce has grown from 3,059 staff to
             approximately 4,000 staff currently. This represents an increase of
             approximately 33 percent. Some offices still have a need for additional
             staff to deal with the increased workload in the Low-Level Waste and
             Uranium Recovery Programs while other offices may face a decreased
             need resulting from various states becoming Agreement States. To
             effectively manage human capital, while continuing to accomplish the
             agency's mission, NRC must continue to implement initiatives in the
             following areas:

                  Recruitment and training.

                  Space planning.

             The issues related to this challenge and the agency’s actions to address
             each issue include the following:

             Issue: NRC must address recruitment, training, and knowledge
             management in light of anticipated fluctuations in workload demands and
             retirements.

                      Action: NRC is refining the agency’s human capital program
                      through the following initiatives: (1) reviewing existing recruitment
                      strategies to determine how the agency can maximize and leverage
                      limited resources to position the agency to be successful with both
                      current and long-term human capital needs; (2) developing a talent
                      acquisition and recruitment plan that will focus on strengthening its
                      academic linkages, diversity, and other areas; and (3) acquiring
                      wellness services to provide for functions involving health, physical
                      fitness, ergonomics, automated external defibrillation, and
                      occupational safety and health services.

                      Action: For FY 2011, NRC will strategically focus on fine tuning
                      available skill sets to meet future mission needs. The agency
                      anticipates various critical skill needs for the next several years and


                                                 26
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                 will continue to recruit, hire, and develop staff to meet these skill
                 needs. Hiring strategies will also include emphasis on
                 governmentwide programs, specifically hiring of the disabled and
                 employment of veterans.

        Issue: NRC needs to facilitate continuation of its space planning efforts.
        Last October, the General Services Administration signed a lease for the
        construction and occupation of a building that the developer will construct
        across Marinelli Road from One White Flint North. NRC will occupy the
        building, referred to as Three White Flint North (3WFN), under the terms
        of a 15-year lease between the General Services Administration and the
        building owners. Ground-breaking ceremonies for the building were held
        during May with excavation beginning in early July. When completed,
        3WFN will provide office space for approximately 1,300 NRC staff
        members and allow the agency to reconsolidate headquarters staff who
        are now dispersed among four offsite locations. The space in 3WFN will
        allow the agency to decompress work areas and restore conference
        rooms that had been converted to workstations in both One White Flint
        North and Two White Flint North. The building will also house the
        Headquarters Operations Center and the Data Center. At the present
        time, there is no funding in the budget for either above ground or
        underground pedestrian access between One White Flint North and
        3WFN. To access 3WFN, agency employees will have to cross Marinelli
        Road, which is a multi-lane road. NRC faces two challenges related to
        3WFN. The agency must ensure that:

             Building requirements are met and within budget.

             Provisions are put in place to ensure safe pedestrian movement
             between the buildings.

                 Action: Although the construction is in the preliminary phase and
                 the target date to begin moving staff into 3WFN is September 2012,
                 NRC is currently working on the design requirements for the interior
                 of the building. The goal is to provide a good working environment
                 for NRC employees within the budget.

                 Action: In late August, the agency signed a Memorandum of
                 Understanding with Montgomery County to ensure cooperation to
                 maximize pedestrian safety around the White Flint complex. In the

                                            27
      Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



                       near term, the county Department of Transportation staff are
                       meeting with NRC staff to discuss current and future pedestrian
                       and vehicle flows on both sides of Marinelli Road and how best to
                       manage them between Rockville Pike and the White Flint complex
                       vehicle entrance/exit.



IV.   CONCLUSION

              The seven challenges contained in this report are distinct, yet are
              interdependent to accomplishing NRC’s mission. For example, the
              challenge of managing human capital affects all other management and
              performance challenges.

              The agency’s continued progress in taking actions to address the
              challenges presented should facilitate achieving the agency’s mission and
              goals.




                                                  28
   Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                                                                                            Appendix
SCOPE AND METHODOLOGY

           This evaluation focused on the IG’s annual assessment of the most
           serious management and performance challenges facing the NRC. The
           challenges represent critical areas or difficult tasks that warrant high level
           management attention. To accomplish this work, the OIG focused on
           determining (1) current challenges, (2) the agency’s efforts to address the
           challenges during FY 2009, and (3) future agency efforts to address the
           challenges.

           OIG reviewed and analyzed pertinent laws and authoritative guidance,
           agency documents, and OIG reports, and sought input from NRC officials
           concerning agency accomplishments relative to the challenge areas and
           suggestions they had for updating the challenges. Specifically, because
           challenges affect mission critical areas or programs that have the potential
           to impact agency operations or strategic goals, NRC Commission
           members, offices that report to the Commission, the Executive Director for
           Operations, and the Chief Financial Officer were afforded the opportunity
           to share any information and insights on this subject.

           OIG conducted this evaluation from May through August 2010 at NRC
           Headquarters. The major contributors to this report were Steven Zane,
           Deputy Assistant Inspector General for Audits; Sherri Miotla, Team
           Leader; Beth Serepca, Team Leader; Kathleen Stetson, Team Leader; RK
           Wild, Team Leader; and Judy Gordon, Quality Assurance Manager.




                                               29
